<html>
<title> - AN OVERVIEW OF THE NASA BUDGET FOR FISCAL YEAR 2019</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                     AN OVERVIEW OF THE NASA BUDGET
                          FOR FISCAL YEAR 2019

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON SPACE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 7, 2018

                               __________

                           Serial No. 115-51

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

       Available via the World Wide Web: http://science.house.gov

              
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
28-938PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1671667956756365627e737a663875797b38">[email&#160;protected]</a>             
              
              
              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  AMI BERA, California
THOMAS MASSIE, Kentucky              ELIZABETH H. ESTY, Connecticut
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, Texas
RANDY K. WEBER, Texas                DONALD S. BEYER, JR., Virginia
STEPHEN KNIGHT, California           JACKY ROSEN, Nevada
BRIAN BABIN, Texas                   JERRY McNERNEY, California
BARBARA COMSTOCK, Virginia           ED PERLMUTTER, Colorado
BARRY LOUDERMILK, Georgia            PAUL TONKO, New York
RALPH LEE ABRAHAM, Louisiana         BILL FOSTER, Illinois
DANIEL WEBSTER, Florida              MARK TAKANO, California
JIM BANKS, Indiana                   COLLEEN HANABUSA, Hawaii
ANDY BIGGS, Arizona                  CHARLIE CRIST, Florida
ROGER W. MARSHALL, Kansas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
                                 ------                                

                         Subcommittee on Space

                     HON. BRIAN BABIN, Texas, Chair
DANA ROHRABACHER, California         AMI BERA, California, Ranking 
FRANK D. LUCAS, Oklahoma                 Member
MO BROOKS, Alabama                   ZOE LOFGREN, California
BILL POSEY, Florida                  DONALD S. BEYER, JR., Virginia
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DANIEL LIPINSKI, Illinois
BARBARA COMSTOCK, Virginia           ED PERLMUTTER, Colorado
RALPH LEE ABRAHAM, Louisiana         CHARLIE CRIST, Florida
DANIEL WEBSTER, Florida              BILL FOSTER, Illinois
JIM BANKS, Indiana                   EDDIE BERNICE JOHNSON, Texas
ANDY BIGGS, Arizona
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
LAMAR S. SMITH, Texas
                            C O N T E N T S

                             March 7, 2018

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Babin, Chairman, Subcommittee 
  on Space, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................     4
    Written Statement............................................     6

Statement by Representative Ami Bera, Minority Ranking Member, 
  Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................    10

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives
    Written Statement............................................    12

                               Witnesses:

Mr. Robert M. Lightfoot, Jr., Acting Administrator, National 
  Aeronautics and Space Administration (NASA)
    Oral Statement...............................................    14
    Written Statement............................................    17

Discussion.......................................................    31


             Appendix I: Answers to Post-Hearing Questions

Mr. Robert M. Lightfoot, Jr., Acting Administrator, National 
  Aeronautics and Space Administration (NASA)....................    60

            Appendix II: Additional Material for the Record

Articles submitted by Representative Ami Bera, Minority Ranking 
  Member, Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    86

Letter submitted by Representative Ed Perlmutter, Subcommittee on 
  Space, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    98

Letter submitted by Representative Dana Rohrabacher, Subcommittee 
  on Space, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................   100

 
                     AN OVERVIEW OF THE NASA BUDGET
                          FOR FISCAL YEAR 2019

                              ----------                              


                        WEDNESDAY, MARCH 7, 2018

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:09 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Babin [Chairman of the Subcommittee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Babin. The Subcommittee on Space will now come to 
order.
    Without objection, the Chair is authorized to declare 
recesses at any time.
    Welcome to today's hearing titled, ``An Overview of the 
National Aeronautics and Space Administration Budget for Fiscal 
Year 2019.''
    I would like to now recognize myself for five minutes for 
an opening statement.
    The passage of the 2017 NASA Transition Authorization Act 
last year was clear evidence of the Committee's bipartisan 
support of NASA. The fiscal year 2019 budget request reflects 
the Administration's adherence to the ``continuity of purpose'' 
described in the Authorization Act.
    This Committee's commitment to NASA's long-term goals are 
codified in law and the hearing record we've established over 
the years. Mars has been, and will remain, the first 
interplanetary destination for humanity. And along the way, 
NASA has been encouraged to carry out any mission necessary, 
including cislunar activities, to advance future interplanetary 
exploration.
    There are many benefits to this strategy. The moon offers a 
proving ground closer to home for advancing the technologies 
necessary for deep space exploration. The opportunities for 
commercial and international participation could greatly 
enhance a lunar mission. And the more frequent operational 
cadence will better prepare astronauts, mission crews, and 
commercial partners for future missions.
    We were very encouraged to see the President sign the Space 
Policy Directive-1 last year and the new Exploration Campaign 
at NASA in the budget proposal. But the details are still 
forthcoming, and as a friendly reminder, the Exploration 
Roadmap called for in the 2017 Authorization Act was due back 
to this Committee on December the 1st. I hope the 
Administration will see fit to send this important report soon 
so that the Committee has the best information to work with.
    The President's budget proposal also includes some ideas 
about the future of the International Space Station. Currently, 
the ISS will operate until at least 2024, and the budget 
proposes to end direct government funding in 2025. The idea is 
that the commercial sector will step in to operate the ISS with 
NASA as the customer--as a customer I should say.
    The ISS, managed and operated out of the Johnson Space 
Center, it is a unique testbed for deep space exploration and 
serves as a significant services customer to our developing 
NASA commercial partners. I remain open to new ideas relative 
to future operations, but obviously, we need a detailed and 
realistic, sustainable plan for any ISS transition in the 
future. We will need buy-in from the industry and the workforce 
well in advance of simply turning off the lights at the ISS and 
walking away. Now, I know that isn't what is on the table, but 
NASA will need to do a better job articulating this plan as we 
move forward. As another friendly reminder, the ISS transition 
plan called for the 2017 Authorization Act was also due back to 
this Committee on December the 1st.
    Turning to NASA's science portfolio, this budget request 
continues to restore balance and support critical work across 
the entire science directorate. The budget supports a robust 
science program. This includes a range of small, medium, and 
large missions, such as the TESS exoplanet mission next month, 
the Mars Insight lander in May, the Parker Solar Probe over the 
summer, and the James Webb Space Telescope in 2019, as well as 
the flagship Europa Clipper and Mars 2020 rover missions, all 
exciting stuff.
    NASA has many exciting projects and missions across the 
agency. It is amazing to see the progress that's been 
accomplished over just the last year. Very soon, SLS, Orion, 
Dragon 2, and Starliner vehicles will take their very first 
flights. NASA will begin construction of the Deep Space 
Gateway, the first permanent human outpost beyond low-Earth 
orbit. And with continued bipartisan congressional support, 
NASA will continue to make great strides in deep space 
exploration.
    I want to thank Administrator Lightfoot for his testimony, 
and I look forward to this very important discussion.
    [The prepared statement of Chairman Babin follows:]
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. I would like to now recognize the Ranking 
Member, the gentleman from California, for an opening 
statement.
    Mr. Bera. Thank you, Mr. Chairman.
    And good morning and welcome to Acting Administrator 
Lightfoot, and thank you for your strong leadership.
    As we look at the budget, we're somewhat happy with the top 
line numbers. It does suggest the Administration understands 
the importance of space exploration and funding NASA. But in 
the 2017 NASA Transition Authorization Act, we talked about 
NASA being a multi-mission agency and organization. And as we 
dive into the budget, there are some areas of concern of the 
overweight focus just on exploration. None of us is going to 
argue that exploration is not important but we also want to 
make sure we don't lose sight of the space science side, the 
space technology, the aeronautics and education.
    One area of concern on the space science side is the moving 
away from the focus on WFIRST. If we think about the objective 
decadal process, WFIRST was a priority project there. And the 
decadal survey has served us well. And again, not looking at 
this scientific-based prioritization and moving away from that 
certainly can set a dangerous precedent. We don't want to get 
into a situation where every four years priorities are 
changing. That makes it very difficult for the NASA 
Administrator and NASA to focus on some of these longer-term 
projects.
    On aeronautics, cutting back on the X-Plane demonstration. 
Aeronautics and aviation is an area where America is a world 
leader, and if we don't continue to maintain that focus and 
that lead, well, that doesn't just have repercussions on our 
ability to be the world leader there because others will step 
into that place, but it does have repercussions on an important 
segment of our economy. And again, aviation is a $90 billion 
positive trade balance for the United States.
    In the area of education, the Chairman and I were noticing 
the number of young people that are out there in the audience, 
and I think it's great that the students and the young people 
that are out there have such an interest in space and science 
and exploration. And the diversity that you see across this 
audience--and, as the father of a daughter--it is great to see 
the number of young women in this room as well thinking about 
science and thinking about the future, so thank you for being 
here.
    But let's not cut the education budget as well because 
education is incredibly important, particularly programs like 
the MUREP program, the Minority University Research and 
Education Program, because the diversity we see in this room, 
we want to make sure that next generation also reflects the 
diversity of the United States, so funding programs like that 
are incredibly important.
    And let's touch on exploration. I mean exploration is 
incredibly important, but as we start to think about--we saw 
the Space Council wanting to focus on a return to the Moon and 
the lunar mission. We've talked about that return to the Moon 
as well. But in truth, a lot of us talk about the desire to go 
to Mars, and I think my colleague from Colorado certainly will 
emphasize that.
    If we think about our own history and think about when 
President Kennedy challenged us to put a person on the Moon, we 
set a focus and we didn't change every four years. We had some 
longevity. We understood what that mission and focus was. And 
if our desire is to go to Mars and go deeper into space, we 
have to maintain a focus on, you know, how we get there because 
Mars is going to be tough. It's going to require space 
technology, it's going to require an investment in space 
science, it's going to require all the things that NASA does 
very well, including what the commercial sector can do coming 
up behind us.
    So I'm going to be very interested in hearing your 
impression, Administrator Lightfoot, but again, I want to make 
sure that, as we look at NASA as a multi-mission organization, 
we don't rob from Peter to pay Paul but we actually adequately 
fund all those missions. And as we go through our budgeting 
process I think that'll be incredibly important.
    [The prepared statement of Mr. Bera follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    [The prepared statement of Ms. Johnson follows:]
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
 
    Mr. Bera. And Mr. Chairman, I request unanimous consent to 
submit four documents for the record, including opinion pieces 
and statements related to NASA's fiscal year 2019 budget 
proposal.
    Chairman Babin. Without objection.
    [The information appears in Appendix II]
    Mr. Bera. And I yield back.
    Chairman Babin. Okay. Thank you. I'd also like to--I think 
I've got the name of the school where you students are from, 
the Lake Braddock Secondary School from Fairfax, Virginia. Is 
that correct? Well, welcome this morning. Any other schools 
participating this morning? Well, anyway, we welcome you. Thank 
you for being here. And as my friend Dr. Bera said, it's very 
gratifying to see young folks be interested in STEM studies and 
our space program. You couldn't find a better place to come and 
participate and have aspirations to join in at NASA, so thank 
you for being here.
    Let's see. Chairman Smith is not here. Ranking Member 
Johnson is not here.
    Okay. Well, let me introduce the witness today. Our witness 
today is Mr. Robert Lightfoot, Acting Administrator of the 
National Aeronautics and Space Administration. Before serving 
as Acting Administrator, Mr. Lightfoot served as the Associate 
Administrator, the highest-ranking civil servant at NASA. 
Before that, he was Director of NASA's Marshall Space Flight 
Center in Huntsville, Alabama. He managed propulsion, 
scientific, and space transportation activities.
    From 2003 to 2005, he served as Assistant Associate 
Administrator for the Space Shuttle Program at NASA's 
headquarters right here in Washington where he oversaw 
technical and budgetary oversight of the annual budget and 
initial transition and retirement efforts for the shuttle 
infrastructure.
    From 2005 to 2007, Mr. Lightfoot was responsible for 
overseeing the manufacture, assembly, and operation of the 
primary shuttle propulsion elements such as the main engines, 
solid rocket boosters, and reusable solid rocket motors. We 
really appreciate all those long years of service.
    Mr. Lightfoot received a bachelor's degree in mechanical 
engineering from the University of Alabama--Roll Tide. He was 
also named Distinguished Departmental Fellow for the 
University's Department of Mechanical Engineering in 2007 and 
was selected as the University of Alabama College of 
Engineering Fellow in 2009. So I'd like to now recognize Mr. 
Lightfoot for five minutes to present his testimony.

             TESTIMONY OF ROBERT M. LIGHTFOOT, JR.,

                     ACTING ADMINISTRATOR,

                    NATIONAL AERONAUTICS AND

                      SPACE ADMINISTRATION

    Mr. Lightfoot. All right. Thank you, Mr. Chairman and 
Members of the Committee, for the opportunity to testify before 
you on the NASA 2019 budget request.
    The request places NASA at the forefront of a global effort 
to advance humanity's future in space and expands on our 
nation's great capacity for exploration and innovation. NASA is 
focused on its core exploration mission and the many ways this 
mission returns value to the United States. Through this 
mission, NASA produces knowledge and discoveries, strengthens 
our economy and security, deepens partnerships with other 
nations, inspires the next generation, and helps provide 
solutions to tough problems back here on Earth.
    This year's proposal initiates an exploration campaign. 
NASA will pursue exploration and development of the Moon and 
deep space by leading innovative new commercial and 
international partnerships, leveraging and advancing the work 
we've already been doing in low-Earth orbit on the 
International Space Station.
    Our successful investment with a strong U.S. space industry 
in low-Earth orbit allows us to focus our energies on farther 
horizons. As private companies continue their successful cargo 
missions to low-Earth orbit, we will once again launch 
astronauts from American soil beginning with test flights this 
year.
    In low-Earth orbit, the International Space Station is our 
cornerstone of our integrated approach to deep space. We are 
dedicated to using the full potential of the station to 
demonstrate critical technologies, learn about human health in 
space, and focus commercial energies on the growing low-Earth 
orbit economy. Further, we'll accelerate the process of 
transitioning to commercial approaches to ensure long-term 
human presence in LEO by the end of 2024.
    In the vicinity of the Moon and on its surface, the Space 
Launch System and Orion are critical backbone elements to 
provide us the transportation infrastructure to and from that 
location. The integrated launch of these systems in fiscal 2020 
is on track, and a mission with crew in 2023 remains on track 
as well. In 2019, we'll have an important test of the Orion 
Launch Abort System to advance the critical safety knowledge 
for the upcoming missions.
    We'll also begin to build the in-space infrastructure for 
long-term exploration and development of the Moon. By 
delivering to the lunar orbit a Power and Propulsion Element as 
the foundation of our Lunar Orbital Platform Gateway, this 
gateway will expand what humans can do in the lunar environment 
and provide opportunities to support those commercial and 
international missions to the surface that will help pioneer 
new technologies and exploration.
    Our plan will draw on the interest and capabilities of our 
industry and international partners as we develop progressively 
complex robotic missions to the surface of the Moon with 
scientific and exploration objectives in advance of a human 
return. In collaboration with our robust scientific activity 
across NASA's portfolio, these new lunar robotic missions will 
stretch the capabilities of industry and international 
partners, while returning science and knowledge we can use for 
future human missions.
    For the deep space domain, technology drives exploration, 
both human and robotic, and helps us solve problems in space 
and here on Earth. It lays the groundwork for our future 
missions and addresses many needs, including how we'll live in 
space, how we'll get there, and how those technologies will 
allow us to move further into space. We'll focus our technology 
investments on applications of the technology to deep space 
exploration and innovative ways to further our goals from 
concept to test to flight.
    In science, our incredible portfolio will continue to 
increase understanding of our planet and our place in the 
universe, pursue civilization-level discoveries such as whether 
or not there's life elsewhere in the universe, and scout for 
knowledge to inform future human advancement into space. Our 
robust activity will include a Mars rover, a lander, sample 
return missions, diverse Earth and planetary missions, and 
spacecraft to study the Sun and how it influences the very 
nature of space. Powerful observations will study other solar 
systems and their planets and peer back to the dawn of time 
through other galaxies.
    In aeronautics, NASA's work has always strengthened our 
security and economy, and our ongoing research and testing of 
new aeronautics technology is critical in these areas. It will 
help us lead the world in global aviation economy with 
increasing benefits worldwide. Commercial supersonic flight, 
unmanned aviation systems, and the next generation of aircraft 
are some of the critical focuses of this important program to 
our nation.
    Our mission successes will continue to inspire the next 
generation like the folks with us here today to pursue science, 
technology, engineering, and mathematics studies to ultimately 
join us on this journey of discovery and become part of that 
diverse workforce we will need for tomorrow's critical 
aerospace careers. We'll use every opportunity to engage 
learners in our work and our missions.
    This budget places NASA again at the forefront of a global 
effort to advance humanity's future in space and draws on our 
nation's great capacity for innovation and exploration, to 
raise the bar of human potential, and improve life across the 
globe.
    Finally, on a personal note, I would like to thank Chairman 
Smith for his years of service to NASA and this country by his 
service on this Committee. Thank you very much, and I look 
forward to your questions.
    [The prepared statement of Mr. Lightfoot follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. Thank you very much. I'd like to recognize 
myself for five minutes for questioning.
    The National Academies Pathways report from 2014 included a 
sand chart that depicted the notional budget for exploration, 
so I would ask if you wouldn't mind, please pull up that chart.
    [Slide.]
  [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. Thank you very much. The chart broke down 
funding for the ISS, for the SLS, Orion, as well as exploration 
technology and research, and the chart visualizes how, without 
significant increases to the exploration budget, the 
development of any new projects going forward would be delayed 
in order to accommodate the continued operation of the ISS on 
to 2028.
    Last March, this Subcommittee held a hearing on the plans 
for the ISS after 2024, and at the hearing, we heard testimony 
about how slight increases to the exploration budget have 
allowed for some bit of flexibility to these projections. So 
I'd ask you to pull up the second chart if you would.
    [Slide.]
    Chairman Babin. NASA's exploration budget request for 
fiscal year 2019 is $10.5 billion, and while this is 
considerably more than was envisioned in the Pathways report, 
that $10.5 billion now includes approximately $1 billion in 
activities previously funded under the Space Technology Mission 
Directorate. So let's assume that budget caps are not lifted 
significantly in the future. If the ISS is extended past the 
current authorized date of 2024, what new projects will be 
delayed, and would the Lunar Orbital Platform-Gateway be 
delayed? Would it prevent the start of a human lunar excursion 
vehicle development until after the 2030s?
    Mr. Lightfoot. Well, I think if you look at the budget 
request we have, it--and we're proposing to eliminate 
government funding for the ISS in 2025.
    Chairman Babin. Right.
    Mr. Lightfoot. That's our intent is to get--so we don't 
have to fund that in the future and so that the total program, 
though, when you look at it, what we want to do is work the 
Mars vicinity. We want to get the platform built. We want to 
build these robotic landers to and from the Moon. There--while 
it's not a perfect transition from what we're doing in low-
Earth orbit, there's not like a switch we're going to flip and 
magically go there----
    Chairman Babin. Right.
    Mr. Lightfoot. --right? What we want to use now this year, 
this budget year is to go determine what are the commercial 
capabilities that would allow us to fill the gap that you show 
in your chart after 2024. What would they--what capabilities 
are going to be there? So you're going to see a series of 
announcements from us. We're trying to stimulate that with $150 
million in this 2019 budget and roughly if--you know, in the 
out years that would be $900 million over time to see who can 
fill that slot so we can move on and build those Gateway 
pieces.
    Chairman Babin. Okay.
    Mr. Lightfoot. That's the way we're looking at it.
    Chairman Babin. Okay. Thank you. And then second, if NASA 
transitions low-Earth orbit operations to the private sector, 
how will NASA preserve the unique expertise and capabilities 
related to mission operations, program management, systems 
integration, including habitat and astronaut training, among 
other core competencies that reside at Johnson Space Center? Is 
there a long-term strategic plan that clearly delineates core 
center roles? And for the past several years, every time we've 
asked headquarters, the answer has been we need to wait and 
see. So what say you about that?
    Mr. Lightfoot. Yes, we've spent quite a bit of time in the 
last two or three years defining center roles and what the 
roles are and of course JSC, Johnson Space Center, has those 
roles that you described. We believe those roles continue as we 
move into the----
    Chairman Babin. Okay.
    Mr. Lightfoot. --lunar platform, and we also--one of the 
other things we want to learn from the request for the 
commercial folks this upcoming year is what capabilities do 
they want to depend on? Because mission operations----
    Chairman Babin. Yes.
    Mr. Lightfoot. --astronaut training, those are things we 
can offer and then get reimbursed for as we move forward.
    Chairman Babin. Right. Okay. Thank you.
    A backup plan for commercial crew, when the commercial crew 
partners experienced delays two years ago, NASA was able to 
maintain U.S. access to the station through the purchase of 
additional Soyuz seats through Boeing as a result of their Sea 
Launch settlement. Additional delays announced at their hearing 
earlier this year once again threaten U.S. access to the ISS. 
There are no more Soyuz seats to buy. Is NASA considering 
accepting additional risk by flying U.S. astronauts on 
commercial crew test flights? And if additional delays occur 
this spring, which is not out of the question given the 
complexity of work over the next several weeks, is this risky 
option off the table? And are we in a position that we may need 
to scale back crew on the ISS? Will we have to frontload our 
agreement with the Russians to maintain a steady crew in the 
near term, which will end up costing us more in the out years 
to accommodate their cosmonauts on commercial providers? I know 
I'm trying to get these questions in before I run out, so if 
you could answer some of those, I'd appreciate it.
    Mr. Lightfoot. Yes, so in the spirit of time here, what I--
we are looking at several options along that line.
    Chairman Babin. Right.
    Mr. Lightfoot. I can tell you that we're working with the 
Russians, we're working with our commercial partners, but we 
maintain--we're still confident our commercial providers are 
going to provide us the capability we need, and we're just 
looking at contingencies in case it happens. What I would offer 
is our teams can come up and brief you on the different options 
we're looking at----
    Chairman Babin. Right.
    Mr. Lightfoot. --at some point, brief your staff on that.
    Chairman Babin. Okay. Great. That's good. And I'm out of 
time, so I would like to recognize Mr. Bera now.
    Mr. Bera. Thank you, Mr. Chairman.
    Administrator Lightfoot, what's the basis for NASA focusing 
in on a core mission of exploration, specifically lunar 
exploration, when succesive of NASA Authorization Acts have 
emphasized the multi-mission role of NASA?
    Mr. Lightfoot. Yes, I think what we're looking at--I think 
we still have a very balanced budget when you look across the 
multi-mission opportunities in science and aeronautics and 
technology, along with the exploration activity. What we're 
really trying to do here is focus on a long-term plan with our 
eye on Mars ultimately, right, but we had to really start to 
define--and this Committee has even asked us to do that 
multiple times. We had to define what we're going to do in the 
decade of the 2020s to get ready to go to Mars. And I think 
what you see in this budget is a series of missions to the Moon 
and the lunar vicinity that are going to enable us to get to 
Mars ultimately. So I think we still have a good balanced 
budget from that standpoint.
    Mr. Bera. And as we look at that return to a lunar mission, 
I think we've talked about this on this Committee multiple 
times, that that return has to be in the context of learning 
something new that allows us to go on to the next capabilities. 
I know we've asked for that human exploration roadmap that 
talks about these interim destinations that allow us to go 
further. Without that roadmap it becomes difficult for us to 
evaluate kind of the exploration campaign. When do you think 
we're going to get that roadmap?
    Mr. Lightfoot. You could should get it by the end of the 
month.
    Mr. Bera. By the end of this month, okay. In my opening 
statement I expressed some concerns about robbing Peter to pay 
Paul and, again, the concerns of not having as well-rounded a 
multi-mission portfolio. What are the short-term and long-term 
impacts of giving human exploration precedence over other 
priorities that were outlined in multiple decadal surveys?
    Mr. Lightfoot. Yes, I think when you look at the priorities 
that we have today, we're still meeting the majority of our 
science priorities going forward. We're going to launch TESS, 
for instance, this upcoming year. We've got James Webb going 
out, so the astrophysics area is in pretty good shape from that 
standpoint. We'd like to look at more integration between our 
human exploration and science missions, and so when you look at 
the lunar activity we're doing, it's not just lunar science 
that we're looking at. We're looking at other science we can do 
from the area of the Moon to meet the objectives--meet the 
objectives in maybe different ways than we have in the past 
that are in the decadals. So our science team is looking at 
that as we go forward.
    Mr. Bera. Okay. I made reference in my opening statement 
that in the '60s when we challenged ourselves to put a person 
on the Moon, the focus of the mission didn't change from one 
Administration to the next. You had both Democratic and 
Republican Presidents focused on that Apollo mission. And I do 
think there is some concern as we go from one Administration to 
another I'd be curious from the NASA perspective, it's got to 
be difficult as you're trying to plan these longer-term 
missions that focus changes from one Administration to another.
    And how can we in Congress--we don't tend to turn over 
every four years. Hopefully, some of us are here for a while to 
help guide that process along. And again, we recognize it is 
Congress' job, it's the House's job to set the budget 
priorities and give you that budget, and your job as 
Administrator is to implement that budget. What are some things 
that we can do to avoid a shift every four years but allow you 
to do your job of focusing in on that mission to Mars in 2033? 
Does that make sense?
    Mr. Lightfoot. Yes, I think from our end we think that this 
particular budget proposal just provides some clarity and 
context in terms of trying to still get to Mars as an out--you 
know, kind of that horizon goal that we talked about before. 
And what we're seeing is that we can use the lunar vicinity and 
lunar surface, a more detailed and a more--a better 
understanding of what we can do there to actually help us go 
there. The Gateway is a critical piece of this. We are not just 
going to the Moon. We're going to the lunar vicinity. We 
believe the Gateway can also be a launching point to go to 
Mars, but we've got to build it first, right?
    So we haven't really--it's not as big a change in my mind 
as maybe it looks like overall in terms of the exploration 
planning, but what you guys can do is what you always do, is 
hold us accountable to make sure we're doing the same things 
that you want us to do from an overall perspective.
    I will tell you multi-decadal missions like we're talking 
about doing here are difficult in one-year increments----
    Mr. Bera. Right.
    Mr. Lightfoot. --right, and that continuity and that--is 
very important to us to--for us to keep going as well, not just 
from the policy standpoint but from the budgeting perspective.
    Mr. Bera. And so since it's our job to hold you 
accountable, do you feel the budget, as proposed, will give you 
enough of that multi-mission focus and enough of that multi-
decadal focus to continue focusing in on that long-term 
mission?
    Mr. Lightfoot. Absolutely.
    Mr. Bera. Okay. Thank you. And I'll yield back.
    Chairman Babin. Thank you, Mr. Bera.
    I'd like to recognize the gentleman from Alabama, Mr. 
Brooks.
    Mr. Brooks. Thank you, Mr. Chairman.
    And I'd like to congratulate you, Mr. Lightfoot, on once 
again today setting a new record as the longest-serving Acting 
Director of NASA. I hope you'll have an extension of that 
record tomorrow. We'll see if the Senate ever acts on who's 
supposed to be nominated by the President.
    Now, how much steel and aluminum does NASA use? Do you have 
any judgment about that?
    Mr. Lightfoot. I have no idea, sir.
    Mr. Brooks. Well, I mean you use steel in the launch 
platforms and of course aluminum. That's one of the metals used 
in alloys or directly in providing lightweight launch vehicles, 
commercial crew vehicles, all those things, correct?
    Mr. Lightfoot. It's usually different material for that. I 
mean, we use a lot of aluminum I'm sure. I can't tell you how 
much, though.
    Mr. Brooks. Has this Administration's proposed NASA budget 
taken into account the higher cost for steel and aluminum that 
would be anticipated because of the proposed ten percent 
aluminum and 25 percent steel tariffs?
    Mr. Lightfoot. No.
    Mr. Brooks. All right. I hope----
    Mr. Lightfoot. It was developed before that so----
    Mr. Brooks. Okay. I hope you'll take that into account, and 
hopefully it will be minimal, but if it's not and it's 
something we need to adjust for, then we do need that 
information.
    In March of last year, the Committee held a hearing on the 
future of the International Space Station. More recently, the 
President's budget proposes additional funding to stimulate 
low-Earth orbit commercialization. Would you please discuss 
NASA's current thinking on commercialization and transition 
strategies for the International Space Station?
    Mr. Lightfoot. Yes, sir. We think that the commercial 
industry is really on the precipice of really being able to 
take over that area. We need another destination perhaps other 
than ISS or use the International Space Station as a 
destination maybe operated by others. Our planning and our 
thoughts here are that if we're going to do this, we need to 
talk about it now and not later on if we're going to--because 
of the way the budget works. We--so what we want to do this 
year is we want to do a series of calls for--to see what people 
are doing, ask for their business plan, their business 
proposal, what are they going to do, whether it's use the ISS, 
have a standalone activity in low-Earth orbit, but ultimately 
develop a destination in low-Earth orbit that our commercial 
partners can go to that we and our international partners can 
use going forward.
    Mr. Brooks. If NASA is unable to reduce its cost for 
operating the International Space Station by 2025, and if the 
low-Earth orbit commercialization activity does not bear fruit, 
what should the United States do regarding its presence on the 
International Space Station at that point?
    Mr. Lightfoot. Yes, I think the real question is what is 
the research we can get, the research and science value in low-
Earth orbit that we will get from an International Space 
Station or another entity. And I think that's a discussion 
we'll have once we get the data back that tells us what we need 
to go do, and we'll bring back a budget that addresses it. 
We'll have to make that decision based on the technologies and 
the research that we need to do whether we can accomplish it in 
low-Earth orbit or in our future move out to the toward the 
Moon.
    Mr. Brooks. Each commercial crew provider is required to 
fly an un-crewed flight followed by a crewed test flight before 
beginning International Space Station crew missions. 
Originally, commercial crew providers were required to fly 
functioning environmental control and life-support systems on 
their un-crewed flights. These systems provide oxygen to 
astronauts, absorb carbon dioxide, provide heating and cooling 
for the crew, and maintain atmospheric pressure.
    Recently, SpaceX was granted a waiver by NASA to fly their 
first test flight without these systems. What is NASA's 
reasoning for skipping this stage? And that's assuming the 
information I have is correct. First, is the information I have 
correct?
    Mr. Lightfoot. I'm not 100 percent sure, but what I will 
tell you is no matter what we do when we fly crew, we'll have 
the safety policy in place that we need, and we'll have the 
risk management appropriately around those activities. So I'll 
take that for the record to get back with you in terms of 
exactly what we've agreed to there on that--from that 
standpoint. But no matter what the first crewed flight is for 
us, it will have the right safety checks that we would normally 
do and require before we fly crews on those missions.
    Mr. Brooks. Well, thank you. I look forward to getting that 
information back and also if the proposed tariffs on aluminum 
still do affect the NASA's budget, if you could get that back 
to us, too, so that we can assure that NASA's properly funded.
    Mr. Lightfoot. Okay.
    Mr. Brooks. Thank you.
    Chairman Babin. Thank you.
    I'd like to recognize the gentleman from Colorado, Mr. 
Perlmutter.
    Mr. Perlmutter. Thank you, Dr. Babin.
    Mr. Lightfoot, thank you for your service. Thanks for 
sitting and staying in this position as Acting Administrator. 
You've been doing it for a long time. You were Associate 
Administrator before that. Just in a few words, is it time to 
have somebody who's permanent in that position? Is it hard as 
an Acting Administrator to move the agency forward?
    Mr. Lightfoot. I think, you know, from my perspective on 
that, as someone sitting in that chair, it is always of value 
to have the person the President wants in this position, and I 
think that would be important for us all from that standpoint. 
But I can tell you for the past year I've had no trouble having 
access to the people I need to have access to. I've been 
involved--I mean, I've been to both Space Councils. I've had a 
chair--I haven't had to sit in the back row. I've sat right at 
the table, as the Administrator would be, but there is value in 
having the approved presidential nominee in the chair.
    Mr. Perlmutter. Okay. Well, thank you. I don't know if the 
students over here, are you from Lake Braddock? Okay. So I know 
a lot of your classmates just left, but I'm just curious. Of 
you all, any of you plan to be astronauts or work in the space 
program? By a show of hands, I'd be curious. You're all going 
to be doctors in the healthcare business, right? All right.
    Well, I'm sorry the rest of them left because I'm a lawyer; 
I'm not a scientist. I'm not any of that, but I watch--I love 
science fiction--Star Wars and Star Trek and Men in Black and 
Back to the Future. So some of what we're doing here reminds me 
of Back to the Future, a real effort on exploration, a real 
desire to do that, but when we were in the '60s, there was a 
real investment in getting to the Moon or, you know, as the 
Administrator knows, I want to get our astronauts to Mars by 
2033, which the orbits of Mars and Earth are close, and it 
saves a lot of space travel and potential danger to our 
astronauts.
    But I guess, Mr. Administrator, my question is this: There 
is an emphasis on exploration, but it seems to be at the 
expense of a lot of the other missions of NASA, one of which is 
the Science or the Space Technology Mission Directorate. And I 
have a letter from one of your former colleagues Bobby Braun, 
who is now a dean at the University of Colorado, in effect 
criticizing that--the loss of that directorate. And for the 
record, I'd like to introduce this letter, Mr. Chairman.
    Chairman Babin. Without objection.
    [The information appears in Appendix II]
    Mr. Perlmutter. So my question to you, sir, is--and some of 
the other questions that Mr. Brooks asked, the Chairman asked, 
Dr. Bera, it seems to me that in this process of focusing on 
the Moon with a hope to get to Mars that we're losing a lot of 
the other science elements and a lot of the other Earth science 
programs at the expense of this exploration effort. Is that 
true?
    Mr. Lightfoot. I don't believe it is. In fact, I would 
argue that our technology budget--and when you look at it 
today, the exploration research and technology budget that 
we've proposed is $1 billion. Today, the space technology 
budget is roughly $700 million. So what we've done is we've 
aligned that technology budget with the exploration 
initiatives, and that particular part of the budget will now 
focus on what we call our long poles to getting to Mars, things 
like in-space propulsion, radiation safety, advanced life 
support that we need to actually take crews to Mars, and our 
entry, descent and landing activities that we're doing at Mars 
that we don't have to worry about at the Moon.
    So I think we are--we still have a very balanced portfolio 
going forward, and I just think the alignment and the focus 
from an exploration standpoint is what you're seeing out of 
this budget.
    Mr. Perlmutter. Do you think you're putting the building 
blocks in place to get our astronauts to Mars by 2033?
    Mr. Lightfoot. We're putting the building blocks in place. 
I don't know if we're going to get to it in 2033 or not, but 
we're putting the building blocks in place that we need with 
the systems we're putting around the Moon and on the Moon.
    Mr. Perlmutter. I heard you say--and I think this was 
your--a quote--``We're going to try to get to Mars in the 
'30s,'' try. Another one of my movies, in Star Wars--
    Mr. Lightfoot. Star Wars.
    Mr. Perlmutter. --Yoda said, ``Do or do not----
    Mr. Lightfoot. ``There is no try.''
    Mr. Perlmutter. --there is no try.''
    Mr. Lightfoot. Absolutely. I know it well.
    Mr. Perlmutter. Okay.
    Mr. Lightfoot. I use it with my team all the time.
    Mr. Perlmutter. All right. So, you know, I think that this 
Committee has been--you know, in Congress it's pretty fractious 
sometimes, but this Committee has been pretty solid in wanting 
to support the mission--the overall mission of NASA 
exploration, science, Earth science, deep space, and I think 
this Committee will be behind NASA in getting this done.
    Part of me feels like a lot of this budget was written by 
the Office of Management and Budget, which I'm not happy about. 
So I want you to know that support that I think you have among 
all of us Democrats and Republicans. And I want to thank you 
again for your service, sir.
    Mr. Lightfoot. Thank you, sir.
    Chairman Babin. Thank you, Mr. Perlmutter.
    I'd like to recognize the gentleman from California, Mr. 
Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    And this is one of those rare occasions--well, actually, 
it's not. We agree--my friend from Colorado just expressed a 
concern about the Space Technology Mission Directorate, and I, 
too, am concerned about that, and I join him in expressing 
that. I have a letter as well for the record that I would 
submit for the record today, and I hope you would pay attention 
to that.
    [The information appears in Appendix II]
    Mr. Rohrabacher. And for the sake of our high school 
students there, yes, my friend from Colorado and I agree on 
this. We're working on it. That's the type of bipartisanship 
that this Committee is known for and the American space program 
is known for.
    However, let me note that we have today--and this is for 
the kids--we don't have a full-time Administrator of NASA. This 
is a temporary Administrator here. This is not, however, a 
product of partisanship. This is not political. He's been in 
for a year. We have a good candidate, a great candidate, but 
yet we have to face this job with someone who's in the job 
temporarily.
    This is a product of a couple of Senators who are 
bullheaded and a couple of Senators who are basically watching 
out for their own little domain rather than what's good overall 
for the country. And let me just put that on record so the kids 
recognize that is not politics. It could happen in any--this is 
not a political party-based outcome. It's based on the fact 
that there's several people over in the Senate that have 
demonstrated an arrogance that is unacceptable and makes things 
not work as well in Washington, D.C.
    Let me now note now that we've talked a little bit about 
some of the other things, I, as you know, over the years--and 
when we're talking about kids--there's a big threat to these 
kids. There's a big threat to the people of the world, and it's 
the one thing that we seem to be ignoring, and I don't think 
that we're paying enough attention to it in this budget and 
others, and that is at any time there could be an asteroid or a 
near-Earth object that could come and wipe out half the world 
if not the entire planet. Their generation needs to know that 
we are preparing now for some way to defend this Earth, global 
defense, if indeed something is determined, is actually sighted 
ten years out--and we can do that--so that we could change the 
actual trajectory of an object like this.
    Now, that is not something that's likely to happen, but it 
could happen. And if it does happen, it'll mean your entire 
generation is wiped out. So for these kids and for the planet 
in general, shouldn't we be doing more of that? And, for 
example, NEOCam is something that is absolutely necessary to 
see if an object would be coming from the Sun. Is there any 
money in this budget for NEOCam?
    Mr. Lightfoot. Yes, for the--so for the total picture of 
planetary protection is what we call it. We have an office--
Planetary Protection Office in the agency----
    Mr. Rohrabacher. Right.
    Mr. Lightfoot. --and what we do there is we've increased 
the budget to do more observations that we're required to do, 
but we've also funded a mission called DART, which is going to 
be a mission that goes out and potentially determines whether 
we can deflect an asteroid or not. And we continue the 
technology work on NEOCam. We do not have the NEOCam mission 
yet, but the technology associated with what would become a 
mission is----
    Mr. Rohrabacher. Well, this is vitally--this is something 
that's important even though the chances of a horrible occasion 
like this are small, but the consequences would be incredible, 
catastrophic.
    In terms of your science, and budget, and the fact that 
there seems to be a limitation on Earth science that has been 
mentioned, let me just note that, today, we do have commercial 
companies that are capable of doing things they couldn't do 30 
years ago, especially in the terms of remote-sensing and Earth 
observation. There's no reason in the world why, if a private 
company can do something to make a profit at it, that we should 
take our limited budget for NASA and spend it on something that 
could be done and made a profit on in the private sector. So I 
would think that that's one thing that we should facilitate 
companies to get in, make a profit at doing those things in 
observation and sensing that they can do and make a profit at.
    Lastly, I'd like to bring up another major impediment, and 
I've got one second to do it. And it's debris. And again, one 
thing that we can do as a government is work together with 
other governments, I might add, and other countries that want 
to do things in space to help clear the debris that's limiting 
what we can accomplish in space. Is there--what do we have on 
space debris?
    Mr. Lightfoot. Yes, we continue to work on the 
technologies, and I think this is a topic we've brought up with 
Scott Pace, the Executive Secretary for the Space Council----
    Mr. Rohrabacher. Right.
    Mr. Lightfoot. --is to look at an integrated policy because 
we all have an interest in this across the government.
    Mr. Rohrabacher. Well, I hope so, and I would--let me just 
say that, again, if we can just give these young people a world 
in which their opportunities are present, but by not doing 
things about debris or a possible threat from an asteroid, 
we're doing a great disservice to the next generation. So thank 
you for doing your part.
    Thank you, Mr. Chairman.
    Chairman Babin. Yes, sir. Thank you.
    Mr. Rohrabacher. We'll work together on that.
    Chairman Babin. I'd like to recognize the gentleman from 
Illinois, Mr. Foster.
    Mr. Foster. Thank you, Mr. Chairman----
    Chairman Babin. Yes, sir.
    Mr. Foster. --and thank you for your service. I know it's--
you know, it's tough.
    I'd like to just start with one sort of big-picture item. 
Is it a correct reading of that plot that we looked at earlier 
that with a flat, flat budget, you don't get to the Moon and 
you certainly don't get to Mars? Is that correct?
    Mr. Lightfoot. I think it would be quite a challenge with a 
flat budget to do that.
    Mr. Foster. Right. And that's true both for a flat, flat 
budget and one that even inflation-adjusted, flat including 
inflation?
    Mr. Lightfoot. Yes, we think that--we actually think the--
including inflation we can do this. We've done the models. 
We've run the numbers to say if--
    Mr. Foster. And that assumes shutting down the ISS at some 
appropriate time.
    Mr. Lightfoot. Absolutely.
    Mr. Foster. But without shutting down the ISS, it's a 
nonstarter?
    Mr. Lightfoot. Again, it depends on when we shut it down 
because it--that study showed '24 and '28. I mean, there's 
options in there in the middle if that makes sense. I mean, 
there's other times we can do it.
    Mr. Foster. Yes, you can shut it down when you decide to.
    Mr. Lightfoot. Right.
    Mr. Foster. But you need that money to even return to the 
Moon?
    Mr. Lightfoot. I believe so, to build the entire system to 
do that, absolutely.
    Mr. Foster. Yes. Okay. And then I want to talk about----
    Mr. Lightfoot. That's why we have the plan we have, right? 
It's what we're showing to get off of it in 2024.
    Mr. Foster. Now, if you talk about missions to Mars, an 
obvious suggestion is to have international partners taking a 
significant fraction of that. There's a lot and growing 
enthusiasm among other countries. And what is your attitude 
towards collaboration for a Mars mission with other countries?
    Mr. Lightfoot. Yes, we--all of this we're trying to do we 
think is going to be a great opportunity not only for industry 
partners in the country but also international partners. Last 
week, I was in Japan at the International Space Exploration 
Forum, and I was able to brief all our international partners 
that work with us on space station on what we're trying to do. 
They're all very interested in coming forward to help us not 
only at the Moon but also as we go to Mars. That's our plan all 
along is to include that. That's one of the differences between 
the '60s and now is we have other players that want to come and 
be part of this. They just need us to lead.
    Mr. Foster. And the other thing that is potentially really 
changing are the increased capabilities of artificial 
intelligence and robotics, that you have robots today doing 
things that could only be done by people even a few years ago. 
And so this is an opportunity to really knock some cost out of 
future missions by either having robots precede people to--
which is--it seems like there is a shift in focus in that 
direction now, where you're talking about relatively 
sophisticated robotic-first missions and then deferring the 
human--the much more expensive manned component as necessary to 
meet your budgetary constraints.
    Mr. Lightfoot. Yes, we're using robotics--to your point, 
we're using robotics on the International Space Station 
actually doing things robotically that ten years ago we needed 
crew time for. We will take things--when SpaceX flies to the 
station today, for instance, they carry instruments in the 
trunk, in the unpressurized cargo area for the SpaceX. While 
the crew's asleep, we take the arm, we would pull it out, we do 
it all robotically from the ground. You can do the same thing 
from the platform at the Moon. You can do robotic operations of 
landers on the Moon, so it goes both ways.
    Mr. Foster. Sure. You can have--you know, the old dream----
    Mr. Lightfoot. The advances are incredible.
    Mr. Foster. Yes, the old dream of having self-replicating 
factories on the Moon using completely robotic equipment, these 
sort of things people are making, you know, prototypes of 
components of that on Earth, and it's something actually the 
next generation should get very excited about because these 
sort of prototype facilities on Earth could really lead the way 
for, you know, orders-of-magnitude reduction in the cost of 
future missions.
    Mr. Lightfoot. Yes, we believe our International Space 
Station lets us demonstrate that in space as well.
    Mr. Foster. Okay. Now, in my last time, I'd like to go to 
something very microscopically focused, which is the choice of 
using high-enriched uranium or low-enriched uranium for power 
sources. There is a huge difference in the danger, the 
proliferation danger and the terrorist danger, between high-
enriched uranium and low-enriched uranium. If you have weapons-
grade high-enriched uranium and a terrorist steals it, they 
can, without much sophistication, make a nuclear weapon. On the 
other hand, if they steal low-enriched uranium, they have to go 
and build a centrifuge hall and so on, and so it's almost 
useless to them.
    And so, I'm a little puzzled why you seem to have both 
high-enriched uranium and low-enriched uranium for propulsion 
and for surface power in different parts of your program. And I 
was wondering specifically, have you looked at the real cost of 
security when you choose high-enriched uranium for--that means 
you need armed guards, you need barbed wire, you need 
everything, and it's very expensive because of the terrorist 
threat if you choose high-enriched uranium. You know, it does 
make a slightly more compact design for typical reactor 
applications, but I'd encourage you to look hard at seeing if 
you can lead the world in standardizing low-enriched uranium.
    Mr. Lightfoot. Yes, we've been working on technologies for 
that for the exact reason you're talking about. It is high-
enriched uranium creates a lot of extra challenges there. We've 
been looking at it for power and propulsion. What I'd like to 
do is let our team bring you--get--provide you a report on what 
we've been doing in LEU and how we're trying to use it and the 
applications we see going forward. Would that be okay?
    Mr. Foster. Yes, it'd be very--yes, I mean, there was a 
letter from a long list of Nobel Prize winners just focusing on 
how the United States should lead--there's a danger also that 
countries which are not necessarily nuclear countries will say 
we need a large inventory of high-enriched uranium not to build 
bombs but for their space program. And so if there's a 
technological way to avoid this, I just really encourage you to 
try to lead the world towards exclusively using non-weapons-
grade uranium for your programs.
    Chairman Babin. Okay. Thank you. The gentleman's time is 
expired.
    And I'd like to recognize the gentleman from Oklahoma, Mr. 
Lucas.
    Mr. Lucas. Thank you, Mr. Chairman. And it is always a 
challenge on the Republican side to follow Mr. Rohrabacher from 
California, but here we go.
    A number of my colleagues have touched on this question, 
Acting Director, about the nature of the agency and the ability 
of the things to be done that are necessary in this environment 
we work in with an Acting Director. And you're a long-term 
career guy, and you've done an outstanding job and a very good 
role as Acting Director. But ultimately, as my friends are 
noting here, in the environment we work in, the resources that 
the agency needs in the long-term, having a Director nominated 
and confirmed by the United States Senate from the 
Administration is critically important, and I think we would 
all agree on that. And while this body can't really give advice 
to that other institution--notice I was very careful in my 
phraseology there--nonetheless, having a full-time Director is 
a critically important thing.
    And I spent five or six years sitting next to the OMB 
Director on the subcommittee of another committee, and I 
understand how challenging the circumstances can be there, so 
we need someone, and I agree with my colleagues.
    Another observation in a general sense I would note my 
friend from Colorado's focus on having people on Mars by 2033, 
that would make me 73 years old. I would like to be alive for 
this great accomplishment. And while I come from reasonably 
decent genetics, once we get past the mid-80s, it starts to be 
a little questionable, so I want to help you get there and the 
agency get there.
    So for a comment or two in the weeds now that we've 
discussed indirectly Mr. Mulvaney and the environment we're 
working in, NASA's expressed an interest in building a second 
mobile launch platform for the SLS as a way to address some of 
the scheduling pressure on the first crewed mission of SLS and 
Orion. And I was looking through your request, and I noticed 
the second platform is not included. What effect would building 
a second mobile launch platform rather than modifying existing 
platform have on the launch schedule for SLS and Orion, and 
what would the cost be thinking about our justifications to our 
other friends in government about why we need the resources to 
do things?
    Mr. Lightfoot. Yes, I think we took a hard look at that 
during this cycle, and what the advantage of the second mobile 
launch platform gives you is I could fly on the mobile launch 
platform I'm building today, and I could potentially fly Orion 
if I bought another interim cryogenic propulsion stage, an 
upper stage. So I could fly quicker, fly humans quicker, 
probably 2022 time frame.
    The opposite of that is the cost is a pretty expensive 
proposition to build a new mobile launcher and to buy another 
interim cryogenic propulsion stage. And so just as we had the 
discussion, we had the debate, and our answer came back we just 
should stick with our plan that we've got. So, I mean, that was 
the difference. We can provide you the numbers. I'd be glad to 
provide the cost associated with that to the Committee.
    Mr. Lucas. I would be fascinated by the numbers, Director--
--
    Mr. Lightfoot. Okay.
    Mr. Lucas. --because that's one of the issues that we as a 
committee need to take up in our work with the appropriators if 
we really want to get there in 2033 or a day or two earlier, 
providing those necessary resources.
    Now, let's touch for a moment, are the flat, notional, 
nominal, topline, out-year numbers on the budget request a 
result of the decision to keep funding flat, or are they simply 
placeholders for subsequent requests that the Administration 
will be making as the long-term formula gets put together as 
all the pieces come into place in the Administration?
    Mr. Lightfoot. Yes, we believe that our job is to present 
the budget we need every year to OMB, and so without years 
being notional, I don't really think about them either way as 
placeholders or direction. I just think we have to present our 
budget going forward, so----
    Mr. Lucas. Another observation that I would make to my 
colleagues on the committee that it's our responsibility to 
address some of these long-term issues, our responsibility to 
focus the resources to do what is in the common good and the 
best interest.
    Just one casual question to conclude with, Director. Tell 
us about the funding situations and circumstances of the James 
Webb. Are we still on track? Do we still have the resources 
necessary to help it live up to its potential?
    Mr. Lightfoot. Yes, we believe we have the resources 
necessary now. We're in a pretty significant review from a 
schedule standpoint about when we'll launch it. We're having 
some challenges with a couple of the technical parts of the 
spacecraft, not the telescope part but the actual spacecraft 
bus that's being built. The telescope is already delivered and 
it's ready to go. We've done through--gone through the testing. 
They're around the sunshield and around some of the propulsion 
elements associated with that. So we--we're--I'm supposed to 
get briefed by the end of the month on where we are, and we'll 
let--obviously let everybody know where we are from that 
standpoint.
    Mr. Lucas. And I bring that up, as important as the manned 
program is, nonetheless, your satellites in orbit around the 
Earth have provided us with, as my mother would have said, a 
lot of ``Buck Rogers'' moments in the last 20 years, and we 
need to continue that focus and generating the imagination of 
our fellow citizens.
    With that, I yield back, Mr. Chairman.
    Chairman Babin. Yes, sir. Thank you very much, Mr. Lucas.
    And I'd like to recognize the gentleman from Florida, Mr. 
Crist.
    Mr. Crist. Great. Thank you, Mr. Chairman.
    Chairman Babin. Certainly.
    Mr. Crist. I appreciate that.
    And thank you, Mr. Lightfoot, for being with us today. We 
appreciate the situation you're in, and thank you for your 
tenacity in the mission.
    And you may have addressed these things. I had to step out 
for a meeting or two. During your state of NASA address last 
month, you mentioned that the Administration is putting NASA, 
quote, ``on a path to return to the Moon with an eye towards 
Mars.'' That's an interestingly worded statement, and I 
appreciate that. It seems to avoid a firm commitment as to 
either of the two objectives may be accomplished. And while 
it's clear that this fiscal year 2019 budget focuses heavily on 
lunar exploration, I am a bit concerned that the Administration 
may be shying away from Mars. Can you elaborate on that? And 
you may have already, so forgive me----
    Mr. Lightfoot. Yes.
    Mr. Crist. --if that's the case.
    Mr. Lightfoot. No, it's fine. I'd be glad to articulate 
where I think we are. I think we are still keeping an eye on 
Mars for sure, and the technologies I mentioned earlier 
around--that we're going to still continue to fund. There are 
some pretty long--what we call long poles, challenges, to get 
to Mars: entry, descent, and landing; and space propulsion; 
advanced life support; radiation protection for the crews as we 
go there. These are big challenges for us. So we're going to 
keep working on those while we build the systems that we're 
building at the Moon that we think are going to be extensible 
to get us to Mars.
    The Gateway is a critical piece of that. If--we could've 
decided just go to the Moon from Earth, right, and then that 
would've not been extensible to do anything to get to Mars, but 
the fact that we're going to build a platform that allows us to 
operate to and from the platform to the Moon can also be the 
platform we use to operate to and from to Mars. So that's--I 
think that's a pretty nuanced difference from a technical 
perspective in terms of this architecture.
    Mr. Crist. Where do we think we are in terms of the timing 
of a Mars mission?
    Mr. Lightfoot. Well, you know, as Congressman Perlmutter 
said, he wants 2033. I think what we'll do is see what--how 
much progress we make in the lunar vicinity in building those 
systems we need and knocking down the technical requirements, 
but it will be no earlier than 2033, how about that? I'll just 
leave it at that.
    Mr. Crist. Okay. I appreciate that. Is there an 
opportunity, do you think, for the private sector to assist 
NASA in getting humans to Mars?
    Mr. Lightfoot. Absolutely. We--there--not only an 
opportunity, we are expecting them to help. I mean, they're 
helping today by helping us with low-Earth orbit the activity 
we're doing from a cargo perspective and ultimately the crew 
perspective and even some of the systems that we have on the 
International Space Station. We want to leverage that in a big 
way as we move forward because the more they can do, the more I 
can move out going forward. So it's the entire system of what 
we're doing in low-Earth orbit, around the Moon, and getting to 
Mars. That's going to need international cooperation, it's 
going to need American industry and commercial folks to come 
forward, and then the NASA team themselves. And I think that's 
what's important is to look at that total spectrum.
    Mr. Crist. Yes, sir. Thank you. The budget proposes to end 
direct funding for the International Space Station in 2025 when 
under this proposal the station would be transferred to 
commercial management and control. Will the research being done 
on the space station to mitigate the risk of extended space 
travel on humans be completed by 2025?
    Mr. Lightfoot. Well, we have a roadmap for doing that 
research obviously. The important thing is we're not going to 
quit doing research. We'll be doing research around the Moon on 
the reaction--what happens to humans as well. That's part of 
our discussion this upcoming year is what do we need to do and 
what commercial platforms can actually provide us the same 
research that we get on the International Space Station. So we 
will get the research done that we need to do to move humans 
forward, but we don't ever stop researching for humans no 
matter where we are, at the Moon or even at Mars.
    Mr. Crist. Great. Thank you very much, Mr. Lightfoot. I'll 
yield. Thank you, Mr. Chairman.
    Chairman Babin. Yes, sir. Thank you.
    I'd like to recognize the gentleman from Florida, Dr. Dunn.
    Mr. Dunn. Thank you very much, Dr. Babin----
    Chairman Babin. Yes, sir.
    Mr. Dunn. --Mr. Chairman. I'm going to stay on the same 
line of questioning if I may and ask you to elaborate a little 
more about the transfer of the space station to the commercial 
sector, private sector. You know, how exactly does that work?
    Mr. Lightfoot. Well, part of it is--so we have to 
coordinate with our international partners, too, I want to be 
really clear, as they are part of the International Space 
Station today. What we're really looking for is----
    Mr. Dunn. Are all the governments stepping out or just 
ours? It's just ours?
    Mr. Lightfoot. Yes, we've just proposed it, and we've been 
talking to them going forward----
    Mr. Dunn. Okay.
    Mr. Lightfoot. --but today, all the governments were agreed 
to to 2024. If we go past 2024, all the governments are going 
to have to agree to as well.
    Mr. Dunn. So a new negotiation?
    Mr. Lightfoot. Yes. And I think that's not a difficult 
thing. It may be difficult for them and their ministries and 
all the different things they do.
    But what's really important here is we think when you look 
at the rise of the commercial entities and the--really the--
their abilities and the things they're bringing where there's 
the habitats--we got a tremendous amount of interest in our 
NEXTSTEP, BAA, the Broad Area Announcement around habitats. We 
think by 2025 there's great potential for them to have orbiting 
platforms in low-Earth orbit. It doesn't have--some of them 
might want to use the International Space Station; some may 
want to stand alone. So the plan would be those come along, and 
if they do, we can get our research done and use them--just 
basically buy that as a service for our needs going forward. So 
this next year we'll get--we'll ask folks for that kind of 
feedback. We'll get that kind of feedback from all these 
companies, and we'll see where they really are, which allows us 
to influence our 2020 submit based on that--what that date 
might be.
    Mr. Dunn. So during--on the same theme of reorganization 
here--you stated that NASA plans to reorganize the Human 
Exploration Operations Missions Directorate and Space 
Technology Mission Directorate. Can you also elaborate on that 
transition?
    Mr. Lightfoot. Yes, so the goal here is to move what the 
Space Technology--Space Technology Mission Directorate today 
into an exploration, research, and technology arm, and we're 
still working the details around the organization. We'll have 
that back in the spring. And what we're really trying to do is 
make sure our technologies that we're working on are truly 
aligned with the things we're trying to do at the Moon and 
ultimately at Mars, as I talked about some of the technologies 
we got to work on before.
    And we think having them housed under one organization, 
while today I am very comfortable--I really am pretty 
comfortable with the alignment, there's things we're doing in 
technology that may not be aligned. You know, there's other 
things, and so we're trying to make sure they're all focused. 
And having them under one spectrum so I know what I'm doing in 
low-Earth orbit, I know what I'm doing with the Moon, and I 
know what I'm doing with my technologies, I can make sure those 
are integrated and not on their own, so that's what we're 
trying to do.
    Mr. Dunn. I'm going to lower our altitude just a little bit 
here. I'd like you to elaborate on the X-Plane program, which 
is fascinating to me. And by the X-Plane, I think you mean the 
low boom.
    Mr. Lightfoot. Yes.
    Mr. Dunn. Are there other X-Planes you're working on?
    Mr. Lightfoot. Yes, we have a plan ultimately I think for 
four X-Planes in our--in what we call our New Aviation 
Horizons. The first is the low boom supersonic demonstrator--
flight demonstrator.
    Mr. Dunn. Do you feel pretty confident about that?
    Mr. Lightfoot. Absolutely.
    Mr. Dunn. Great.
    Mr. Lightfoot. I feel very confident. I think you'll see 
some announcements probably in the next month about some 
selections we've made moving forward.
    Mr. Dunn. I'm going to hold you to that.
    Mr. Lightfoot. You can on that one. We're pretty excited 
about that. And the goal there of course obviously is to create 
supersonic transport across the continent of the United States, 
which we can't do today, right? Can we provide a demonstrator 
that allows the commercial market to learn from that 
configuration and move forward?
    The next demonstrator, the next X-Plane is what we call X-
57 Maxwell. It's an all-electric aircraft----
    Mr. Dunn. Yes, yes.
    Mr. Lightfoot. --and so that's the next one. And they we're 
going--we're continuing working on subsonic technologies, which 
is flight technologies from a subsonic perspective. That would 
be the next demonstrator. It's not in this budget, but that 
would be the next one. There'd be a third one even. And we just 
think--I mean, I just think it's critical that we stay engaged 
from an aviation and aeronautics technology perspective.
    Mr. Dunn. It is.
    Mr. Lightfoot. It's a huge global market that we don't want 
to get out of.
    Mr. Dunn. Yes, no really, I'm glad that NASA hasn't lost 
sight of the atmospheric efforts.
    Mr. Lightfoot. Not at all.
    Mr. Dunn. That's very good. Thank you very much, Mr. 
Chairman. I yield back.
    I appreciate your answers, Mr. Lightfoot.
    Chairman Babin. Yes, sir. Thank you.
    I'd like to recognize the gentleman from Virginia, Mr. 
Beyer.
    Mr. Beyer. Thank you, Mr. Chairman, very much.
    Mr. Lightfoot, thank you very much for being here. In your 
testimony you mentioned that the budget request provides for, 
quote, ``critical infrastructure indispensable to the Nation's 
access and use of space,'' and you discuss the importance of 
maintaining the ISS and supplying both crew and cargo through 
NASA's commercial cargo partners. I certainly agree that those 
are very important priorities, which is why I want to discuss 
the Wallops Flight Facility in Virginia. The space launch range 
at Wallops is technically NASA's only launch range, considering 
that launches from Kennedy Space Center in Florida use the Air 
Force's eastern range. In fiscal year 2018, the National 
Defense Authorization Act that Congress established a launch 
support and infrastructure modernization program for DOD's 
eastern range in Florida and the western range in California. 
I'm concerned because there appears to be no similar program 
within NASA to sustain and invest in long-range assets for 
Wallops, which are also used for your mobile range missions in 
the United States and around the world.
    Even more troubling, the fiscal year 2019 President's 
budget request did not include any funding for the 21st-Century 
Launch Complex Program, which has been used to fund some of 
these needs at Wallops in the absence of a dedicated launch 
range program. This Committee included its support for the 
continuation of the 21st-Century Launch Complex Program in the 
2017 NASA Transition Act, but I'm disappointed the budget 
request didn't follow along with this Committee's 
recommendations.
    So I was encouraged that Chairman Culbersonas, Ranking 
Member Serrano, and Members of the House Appropriations' 
Subcommittee on Commerce, Justice, Science, and Related 
Agencies continued funding for this program in their fiscal 
year 2018 bill, and I know that my colleagues and I will be 
pushing for this again in our eventual fiscal year 
Appropriations Act.
    So my question is how is NASA investing in upgrades at 
Wallops to improve the launch range infrastructure, and why are 
there no dedicated range improvement programs for NASA's range 
as there are for the DOD ranges?
    Mr. Lightfoot. Yes, so the way we--what we typically do 
from an infrastructure standpoint is we'll build the 
infrastructure, and then once the program comes into operate 
it, they inherit the infrastructure costs. So we'll do--kind of 
do the upfront investment, and then we let the programs like 
commercial cargo that flies out of Wallops, as you know, 
Sounding Rockets Programs, the Balloons Programs, they support 
the infrastructure that's there. So that's where we are.
    What I will do is I will--I don't know the exact details of 
what we're funding there from an infrastructure perspective, 
but we have an infrastructure process through our Office of 
Strategic Infrastructure that allows us to look for 
modernization and investment. And what I'll do, sir, is I'll 
just provide you what we're doing at Wallops inside that 
budget.
    Mr. Beyer. Okay. That'd be great because the companion 
question is, though, wouldn't the continuation of the 21st-
Century Launch Complex funding help address some of the 
backlog, continue to make NASA's range more competitive, 
basically just strengthen NASA's only range at Wallops?
    Mr. Lightfoot. Yes, I think--well, obviously, it would, but 
we fund that out of our Safety, Security, and Mission Support 
area, which is our--kind of our institutional area, and that's 
an area that gets challenged quite often, so that's--let us get 
you the data on where we are. I'd rather not try to just do it 
off the top of my head from that standpoint.
    Mr. Beyer. Okay. Great. Mr. Chair, that's all I have, so I 
yield back.
    Chairman Babin. Yes, sir. Thank you.
    And now I'd like to recognize the gentleman from Indiana, 
Mr. Banks.
    Mr. Banks. Thank you, Mr. Chairman. And thank you, Mr. 
Lightfoot, for being here. You have been an adequate Acting 
Administrator. You've done a great job. We appreciate your 
leadership, so no offense to you, but I hope next time we're 
sitting here that Administrator Bridenstine will be in the 
chair. It's an embarrassment to the process that that hasn't 
happened yet, but we appreciate the leadership that you have 
provided in the meantime.
    I want to ask you a little bit about the WFIRST mission. 
This project was a top priority for astronomers in the last 
decadal survey. What would be the consequence of canceling the 
mission in your opinion?
    Mr. Lightfoot. Yes, I think the big consequence is the gap 
in astrophysics data that we would get from the WFIRST. I mean 
as--to the astrophysics community, that's a challenge from a 
scientific perspective.
    The other--the positive side of that, though, is that we 
can--that those funds can perhaps get the data in a different 
way, and I think that's what our Science Mission Directorate is 
going to look at.
    Mr. Banks. So you would agree that it would undermine the 
decadal survey?
    Mr. Lightfoot. It's definitely what the decadal survey has 
asked for, but we think there's other ways to get that same 
data.
    Mr. Banks. You do? Okay. Well, many of the important parts 
of the spacecraft for the WFIRST mission have already been 
completed. Would you agree?
    Mr. Lightfoot. I'm not sure I would agree.
    Mr. Banks. For example, at the Harris Corporation, which is 
a major employer in my district, several hundred constituents 
of mine have completed construction of the optical assembly. So 
how much of this spacecraft for the mission has already been 
completed?
    Mr. Lightfoot. Can I get you those numbers? Can I just 
provide them for the record? Because I don't--again, I don't 
want to do it off the top of my head, but there's--
    Mr. Banks. Yes.
    Mr. Lightfoot. --there's quite a bit more to go.
    Mr. Banks. Okay. Please do. Thank you very much.
    Can we really expect, though, substantial savings given the 
amount of work, do you believe, that has already gone into the 
WFIRST mission?
    Mr. Lightfoot. I think when you see the numbers--when 
you're looking at a $3.2-3.9 billion mission, we have not spent 
nearly that much at this point.
    Mr. Banks. Okay. Thank you. I look forward to seeing those 
figures.
    I know the Webb Space Telescope has already been mentioned. 
It continues to experience several complications on the path to 
being ready to fly. Given the intricacy of the design with no 
room for error in the deployment, how would NASA's ability to 
conduct deep space science if WFIRST was canceled and if there 
were further problems with the Webb Telescope after it was 
launched?
    Mr. Lightfoot. I think that's the balance and the challenge 
that we're counting on. We're counting on tests in James Webb 
to fill the astrophysics needs for quite a bit of time, so 
clearly, if we had challenge with James Webb, that would be 
something we'd have to look at.
    Mr. Banks. Okay. And finally, in this day of ever-changing 
innovation and technological advancements, could you explain 
the reasoning for merging the Space Technology Mission 
Directorate with an operations organization?
    Mr. Lightfoot. Yes, I think when you look at the way--
there's really three lines of business in here. There's the 
low-Earth orbit activity where the International Space Station 
is; there's the lunar vicinity area, what we're going to do at 
the surface of the Moon and around the Moon; and then there's 
deeper space exploration, which includes Mars. If you're going 
to have a steppingstone approach, those three steppingstones 
need to kind of be aligned together, and so that's what we're 
trying to do. And if you look at the total budget, it's 
actually a better budget for technology than we had, a 
standalone Mission Directorate, and it'll be more aligned and 
more focused, we believe, with what we're trying to do.
    Mr. Banks. Okay. Thank you very much. That's all I got. I 
yield back.
    Chairman Babin. Yes, sir. Thank you.
    I'd like to recognize the gentleman from California, Mr. 
Knight.
    Mr. Knight. Mr. Lightfoot, thank you. Thank you for your 
leadership, and thank you for hiring my Legislative Director 
and taking him away for me. I'm sure he's doing as good a job 
for you as he did for me.
    You know what we're going to talk about. We're going to 
talk about the big A. So the LBFD, the UEST, these are kind of 
projects that I think would advance mankind. It would 
definitely advance this country, and I'm going to jump on an 
airplane tomorrow and I'm going to .7 Mach, hopefully, if the 
winds aren't so bad. But if I jumped on an airplane in 1968, 
I'd be going .7 Mach across this country. And so for about 62 
years, it's been that. Coming East, we get to go a little 
faster; going West, we get to go a little slower, but that's 
about where we are.
    And so I think the LBFD and then even transitioning a 
little bit into ultra-efficient subsonic transport and saving 
fuel costs and putting these same amount of people into the 
airplane but saving those fuel costs, maybe making a little 
wider seats for me, too, would be a big, big deal to advancing 
mankind and taking that step that maybe we haven't taken in the 
last 60-some years. So that's just my pitch to continue to push 
on that.
    New horizons--and this is a big part of that--but all of 
the X-Planes--and I think that Dr. Dunn started on what you're 
doing with the X-57, and I know that that's progressing very 
well and what we're doing with the Low-Boom Flight 
Demonstrator. What else are we seeing in the future outside of 
what I've kind of just stated?
    Mr. Lightfoot. Yes, there's a couple of things that we're 
working on in aeronautics that are just as important in my 
opinion and that's getting--integrating unmanned systems into 
the airspace. Our teams at Ames are working really hard on 
that--well, all over the country frankly are working on that 
with our partners at FAA and how we would go about doing that. 
You can see the proliferation that's happening everywhere. 
There's personal air mobility coming along, and we're involved 
in the technology and research around that.
    Hypersonics, we're involved in that from a----
    Mr. Knight. That's next.
    Mr. Lightfoot. --very much a research perspective, so those 
are all in that budget that go with the X-Planes that you 
talked about, and very important to us and--I think.
    Mr. Knight. So hypersonics over the last five or ten years 
there's been a lot of advancements to get us to probably a 
position where hypersonics are very achievable, very reachable. 
NASA's been a big part of that, and industry has been a big 
part of that. I think that we're going to see that not just 
from what NASA can do with hypersonics but from a national 
defense situation, hypersonics are very, very important in 
moving forward with new technologies, new ceramics, and new 
materials that make those things achievable.
    I'm going to push over into another realm. We've got some 
companies out there that are doing some innovative things, and 
one of them is in Mojave. It's a Paul Allen company called 
Stratolaunch. Stratolaunch is going to fly an airplane this 
year, a very large airplane, and when they do that, they're 
going to kind of bring a new realm into what we can do for 
space launch because that airplane will be able to fly at a 
couple different airports depending on the taxiways, and 
they'll be able to launch differently than just on the West 
Coast and just on the East Coast, is what we hope. Do you see a 
good partnership with companies like that with Stratolaunch and 
things like that?
    Mr. Lightfoot. Yes, I think we have that we have--our 
launch services process that we have inside the agency and 
flight opportunities process we have inside the agency really 
allows new entrants to come in. We have a really good on-
ramping way for them to demonstrate their capability and become 
part of our--really our toolbox to get our missions done, so 
yes, absolutely we see an opportunity for those folks.
    Mr. Knight. Yes, I think that's a perfect answer, that this 
could be part of the toolbox. This is part of the future.
    And then closer to home to me that not many people know 
about but everybody's talked about the James Webb Space 
Telescope, and so you know I'm going to talk about SOFIA, all 
of the things that SOFIA does. How is that doing?
    Mr. Lightfoot. Still continues to fly its missions. We 
constantly--not only do--are we flying missions, we're engaging 
a lot of educators in that process as we go forward. The data 
is coming back. It'll go through senior review in a couple 
years just like all our missions do, and we'll see--it'll get a 
good assessment of the science value versus the cost and that's 
what we'll do so----
    Mr. Knight. Yes.
    Mr. Lightfoot. It's in--it's still over in Germany right 
now, and there's annual maintenance period----
    Mr. Knight. Correct.
    Mr. Lightfoot. --so we look forward to getting it back here 
in a couple--I think we get it back in a couple of weeks.
    Mr. Knight. Yes. Thank you very much, and I yield back.
    Chairman Babin. Thank you very much. And, yes, we'll take a 
second round here. And I'll tell you what, I'll call on you 
first there, Mr. Bera, the gentleman from California.
    Mr. Bera. Great. Thank you, Mr. Chairman. I've just got a 
quick question, and again, I appreciate the service, Acting 
Administrator.
    You know, when you talked about the space technology budget 
increasing from $700 million to $1 billion, we're happy about 
that obviously. I think, you know, echoing a theme that I think 
a number of members have said and I certainly touched on--one 
of the concerns, though, is with that increased budget but with 
that increased focus on exploration we do have a worry that 
more of the budget for space technology is going to focus on 
the exploration mission as opposed to kind of the cross-
sectional multi-mission piece. And again, it's that borrowing 
from Peter to pay Paul. Could you touch on that?
    Mr. Lightfoot. Yes, I think that's a concern of mine as 
well. I mean, we worry about that in the agency all the time in 
terms--there's several things, right? There's the concern of 
will the technology get eaten by the operational side of the 
house, right?
    Mr. Bera. Right.
    Mr. Lightfoot. And I think that's the biggest concern we 
had for a while. What we've done, though, is we've put some 
things in place that allow us to monitor that and make sure 
we're not doing that. I have a strategic integration activity 
between the mission directorates today that allows--they have 
to come to me to say when they're doing that, so we don't 
internally rob from Peter to pay Paul, and I'm pretty 
comfortable with that process and feel like that alignment will 
stay in place.
    Not only that, when you see the details behind the 
engineering--or the exploration research and technology line, 
there's still some crosscutting budget in there. There's--just 
the majority of it is going to be focused to exploration. 
There's early-stage activity still there, a small amount but 
it's still in there to make sure we're keeping that seed corn, 
not just all exploration-focused but most of it is.
    Mr. Bera. And, you know, as my colleague from Colorado, Mr. 
Perlmutter, pointed out I think most of the Members on this 
Committee in a bipartisan way are very supportive of the multi-
mission aspect of NASA and--as it's our constitutional duty to 
set budget numbers and so forth. We do want to work with NASA 
and work with your administrators to make sure we're robustly 
supporting that multi-mission focus.
    I do have one last question. Would you agree that the 
decadal survey has served us fairly well in terms of 
prioritization and so forth?
    Mr. Lightfoot. Oh, yes. I think it's a stalwart for what we 
do from an agency standpoint----
    Mr. Bera. Right.
    Mr. Lightfoot. --but we don't always do exactly what the 
decadal says. It's just a good advising for us.
    Mr. Bera. And that's a somewhat objective, nonpolitical way 
of advising and prioritizing projects. Well, I'll just go on 
the record. Not doing the WFIRST mission from an astrophysics 
perspective is probably going to be perceived as leaving a hole 
in that continued science. I think we ought to work together to 
try to figure out how we continue to fill that hole or continue 
to move forward with the WFIRST project.
    Thanks. And I'll yield back.
    Chairman Babin. Okay. All right. Thank you.
    And I have a few more questions, too, if you don't mind. 
Concerning Orion, last year, NASA requested $1.186 billion for 
Orion, and Congress appropriated $1.35 billion in fiscal year 
2017, which continues under the current continuing resolution. 
The additional funding was necessary to carry out important 
work on EM-1 rather than deferring it to EM-2. NASA is once 
again requesting to decrease Orion funding. What content would 
be removed if NASA received $1.16 billion rather than the $1.35 
billion in fiscal year 2019?
    Mr. Lightfoot. Let me--can I submit that for the record?
    Chairman Babin. You sure can.
    Mr. Lightfoot. Let me get that back to you so I get the 
exact content that's in there.
    Chairman Babin. Yes, we'd like to know.
    Mr. Lightfoot. Yes.
    Chairman Babin. Okay. And then concerning risk, in your 
January talk to CSIS, you spoke about risk and that trading 
between specific engineering choices and national strategic 
imperatives is a difficult but occasionally necessary 
discussion. Is this the right time now for the Nation to 
reassess how we handle risk? Is this something that NASA should 
engage with industry, trade associations, and academia on?
    Mr. Lightfoot. I think this is a good time as any to do 
that. I think we should do that all the time. You know, nothing 
we're going to take on in this exploration agenda is going to 
be without risk.
    Chairman Babin. Right.
    Mr. Lightfoot. But we're not going to do it in a way--you 
know, we're not going to take excessive risk either. We're 
going to make sure we manage that risk appropriately. And I 
think the American public, this body, all need to understand 
that that's what that risk is. And risk comes in many fashions. 
As you know, Mr. Chairman, there's technical risk for a given 
mission, there's political risk for not doing it or doing it, 
there's programmatic risk in terms of the budget and the 
challenges we're trying to meet. And at the end of the day, I 
could make an argument that the least risky thing is to sit on 
the ground and not fly.
    Chairman Babin. Right.
    Mr. Lightfoot. But I could tell you that's probably the 
most risky thing for us to do as a nation from an overall 
perspective.
    Chairman Babin. I would agree.
    Mr. Lightfoot. And so that's--to me is--so I think the time 
to have that discussion is probably now as we enter this next 
phase of exploration and pushing and then would love to engage 
not only the groups you talked about but frankly this body as 
well because you guys are the ones that help us authorize what 
we're going to go do and understand that.
    Chairman Babin. Okay. And then on hurricane relief, you 
know, we just got hit really hard by Hurricane Harvey at 
Johnson Space Center. My entire--all nine counties that I 
represent were federal declarations of disaster. What is the 
status of hurricane funding for NASA centers?
    Mr. Lightfoot. Yes, we're working the apportionments with 
OMB now----
    Chairman Babin. Yes.
    Mr. Lightfoot. --at a level of detail that we haven't done 
before, so we're trying to make sure we get that done correctly 
and so that we're all tracking where the dollars go and make 
sure we know where it is, so we're working that, and we should 
get that out hopefully soon.
    Chairman Babin. Okay. And then to kind of go back to a 
subject that's already been broached this morning on the mobile 
launch platform, you had spoken to it already, but I was 
wondering about the--I was down in Florida a couple weeks ago 
for the National Space Council meeting, and you were there and 
I appreciated your testimony. The Center Director was telling 
us about some of the things that he thought about the mobile 
launch platform, and it sure sounded like it would be a great 
thing if we could get a second one.
    And as far as the time element and the construction of it, 
if I understood you correctly earlier today--you said that's 
really kind of off the table right now, correct?
    Mr. Lightfoot. Yes.
    Chairman Babin. If we decided to put it on the table, would 
we be behind the eight-ball as far as the time elements in EM-1 
and EM-2 launches?
    Mr. Lightfoot. I think the challenge would be if we--if a 
mobile launcher showed up on the--as something we're going to 
go build, we would not start modifying the one that we're 
building for EM-1. We would not start that modification 
process, and therefore, once we flew once on that launch 
platform, it's now ready to fly again, and so we would go 
through the process of hopefully purchasing another ICPS----
    Chairman Babin. Right.
    Mr. Lightfoot. --again with the expense that comes with it. 
I want to be really clear.
    Chairman Babin. Yes.
    Mr. Lightfoot. And also human-rating that and so we could 
fly Orion with crew quicker. And so maybe the first launch off 
of the new MLP that we would build in that mode would--might be 
EM-3 or EM-4, right, but it would leave us the capability to 
keep flying on the mobile launcher that we're building today 
instead of going in and modifying it.
    Chairman Babin. Well, modifications on the existing mobile 
launch platform, are they--does that lead to any kind of an 
increased risk to be changing and remodifying and remodeling, 
et cetera?
    Mr. Lightfoot. Yes, I think it's--we believe there is risk 
with that. I mean, we've got a 33-month time period right now 
between----
    Chairman Babin. Right.
    Mr. Lightfoot. --the EM-1 and EM-2, mainly to do those 
modifications because basically you have to add just a length 
to it----
    Chairman Babin. Right.
    Mr. Lightfoot. --to be able to handle the new--the Block 1B 
SLS configuration, so that--any time you do that, you're going 
to have some risk when you go in there, and that's a pretty 
complex piece of hardware. When you walk up and down the mobile 
launcher, you see how complex it is, so to add that----
    Chairman Babin. Right.
    Mr. Lightfoot. --is some risk, so I think there's risk 
there. There's also risk in the amount of dollars we need to go 
do an MLP and an ICPS, and that's got to be--you know, that's 
a--I would say that's above my pay grade to make that decision. 
But from an Administration perspective, we just decided that 
we'd rather not--that those dollars weren't really available 
for us to go do that.
    Chairman Babin. But ideally, it would be best to have a 
second one----
    Mr. Lightfoot. You could----
    Chairman Babin. --that you built from scratch?
    Mr. Lightfoot. You could see that from a--it depends on 
what your definition of ideal is, but yes.
    Chairman Babin. Got you. Okay. All right. Mr. Lightfoot, 
this concludes my line of questioning, unless anybody--I don't 
think there's anyone else here. But I want to just commend you, 
compliment you on an excellent job that you've done stepping 
into the gap as our interim Administrator.
    And I would also like to echo some of the comments of my 
colleagues today that we're certainly hoping that the one that 
the President--Mr. Bridenstine that the President has chosen to 
be the next Administrator, we hope that that happens soon. But 
listen, that doesn't take anything away from the great job that 
you've done, and I just want to thank you and thank you for 
being here this morning as well.
    Mr. Lightfoot. All right. Thank you all. Thanks to the 
Committee.
    Chairman Babin. Okay. All right. I want to thank the 
witness and his valuable testimony, the Members for their 
questions. The record will remain open for two weeks for 
additional comments and written questions from Members.
    So with that, this hearing is adjourned.
    [Whereupon, at 11:35 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
